No. 20A-_______

In the
Supreme Court of the United States
GEOPHYSICAL SERVICE, INCORPORATED,
Applicant,
v.
TGS-NOPEC GEOPHYSICAL COMPANY,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

APPLICATION FOR EXTENSION OF TIME TO FILE
A P ETITION FOR W RIT OF C ERTIORARI

Don Cruse
Counsel of Record
Law Office of Don Cruse
1108 Lavaca Street,
Suite 110-436
Austin, Texas 78701
(512) 853-9100
don.cruse@texasappellate.com

Rule 29.6 Statement
The applicant, Geophysical Service, Incorporated, states that: (1) it has no
parent corporation; and (2) no publicly held company owns 10% or more of its stock.

i

No. 20A-_______

In the
Supreme Court of the United States
GEOPHYSICAL SERVICE, INCORPORATED,
Applicant,
v.
TGS-NOPEC GEOPHYSICAL COMPANY,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

APPLICATION FOR EXTENSION OF TIME TO FILE
A P ETITION FOR W RIT OF C ERTIORARI
To the Honorable Samuel A. Alito, Jr.,
Associate Justice of the United States Supreme Court and
Circuit Justice for the Fifth Circuit:
Pursuant to Supreme Court Rule 13.5, the applicant Geophysical Service, Inc.
(GSI) moves for an extension of time of 30 days, to and including January 13, 2020, to file
a petition for writ of certiorari to review the decision and judgment of the Fifth Circuit in
Geophysical Service, Inc. v. TSG-NOPEC Geophysical Co., No. 18-20493 (5th Cir. Sept. 13,
2019) (per curiam). Jurisdiction rests on 28 U.S.C. §1254(1). Absent an extension, the
deadline for filing the petition for writ of certiorari would be December 12, 2019. This
application is being filed at least 10 days before that date. S. Ct. R. 13.5. The request for
extension is not opposed.

1

1.

This case presents important questions of copyright law, including the legal

standard for determining the existence and proper scope of an “implied license” when a
company in a regulated industry is required to deposit some of its copyrighted works with
a foreign governmental regulator.

2.

The dispute involves oﬀshore seismographic survey materials created by

GSI at its own expense, for the purpose of being licensed at a profit to other energy firms.
The Fifth Circuit concluded that, by complying with a depository requirement of Canadian
energy law, GSI had thereby conveyed an “implied license” under U.S. copyright law, and
that this “implied license” was suﬃciently broad for copies of its seismographic works to
later be imported into the United States by TGS, a competing seismographic firm.
3.

In its first opinion in this matter, the Fifth Circuit observed that this dispute

involves “a question left open by Kirtsaeng I. … the diﬃcult interpretive puzzle of what it
means for a copy manufactured abroad to have been ‘lawfully made under this title’ within
the meaning of §109.” Geophysical Serv. v. TGS-NOPEC Geophysical Co., 850 F.3d 785,
795 (5th Cir. 2017) (citing Kirtsaeng v. John Wiley & Sons, Inc., 568 U.S. 519 (2013)).
4.

The Fifth Circuit explained how “the facts of the instant case supply a good

example of the puzzle”:
[A]as in Kirtsaeng I, the copies imported into the United States here were
manufactured abroad, but unlike in Kirtsaeng I, the parties dispute whether
those copies were lawfully made. TGS would have us look to Canadian law
to determine the lawfulness of the Board’s making of the copies—it points
to the fact that Canadian law appears to authorize the CNLOP Board to
release copies of data submitted to it after ten years. Geophysical asks us
instead to look to United States copyright principles … Applying foreign law
2

seems to contradict the plain language of §109.… But applying United
States law seems to foul the principle that the Copyright Act has no
extraterritorial application, and creates some conceptual awkwardness
where, like here, the foreign-made copies were made pursuant to some legal
regime that finds no analog in United States law.”
850 F.3d at 795-96. The Fifth Circuit remanded for the district court to analyze this legal
question in the first instance, and then to apply it to the facts of this case. Id. at 796.
5.

On remand, the district court concluded that, under Kirtaeng I, the question

of whether copies were lawfully made abroad was controlled by United States copyright
principles. Geophysical Servs. v. TGS-NOPEC Geophysical Servs., No. 14-1368, 125
U.S.P.Q.2d 1118, 2017 WL 5598593, 2017 U.S. Dist. LEXIS 192803, at *25 (S.D.T.X.
Nov. 21, 2017). Thus, it interpreted the phrase “lawfully made under this title” to “mean
that a a copy is lawful if it was made … in a foreign country in a manner that would
comply with Title 17 if United States copyright law applied.” Id.
7.

Applying its view of Kirtsaeng I, the district court then granted summary

judgment on a “license” defense, concluding that a company like GSI doing business in
Canada’s energy sector during this time was necessarily granting a copyright license to
the Canadian government, not just to use the works for its own purposes, but to make
copies of those works for importation back into the United States at the direction of TGS.
The Fifth Circuit aﬃrmed on the basis of implied license. Slip op. at 5 & 7 n.5.
8.

The case involves important questions about “implied license” and, as the

Fifth Circuit observed, one of those questions is how this type of “implied license”
defense fits in the framework established by Kirtsaeng I, for which “the facts of the

3

instant case supply a good example of the puzzle.” 850 F.3d at 795. When a foreign
regulatory regime demands that a copyrighted work be deposited with the government, are
copies later made at the direction of a third party “lawfully made under Title 17” such
that the copyright owner cannot exclude their importation into the United States?
10.

The case also presents a divide between the circuits about who bears the

substantive and procedural burdens of an “implied license” defense. For express license,
these burdens fall on the party seeking to avoid copyright liability. S.O.S., Inc. v. Payday,
Inc., 886 F.2d 1081, 1088 (9th Cir. 1989) (“copyright licenses are assumed to prohibit
any use not authorized”); see also slip op. at 7 n.5 (acknowledging this rule). For implied
license, the Fifth Circuit has instead shifted a substantive burden onto copyright owners
to “object” to other potentially infringing uses of their work when they deposit a physical
copy. Slip op. at 6 & 7 n.5; cf. 17 U.S.C. §202 (transfer of a copy “does not of itself convey
any rights in the copyrighted work embodied in the object”). Other courts have adhered to
the view that, as with express license, proving the scope of an implied license instead
turns on whether there was a “‘meeting of the minds’ between the parties to permit the
particular usage at issue.” Jose Luis Pelaez, Inc. v. McGraw-Hill Global Educ. Holdings,
LLC, 399 F. Supp. 3d 120, 141-42 (S.D.N.Y. 2019) (collecting authorities from the First,
Fourth, Fifth, and Seventh Circuits divided on the correct legal standard to apply).
11.

A 30-day extension to file a petition for a writ of certiorari is necessary so

that counsel can appropriately prepare the petition and appendix. The completion of this
process has been further complicated by lead counsel’s other, previously engaged matters,
including ongoing briefing deadlines and argument dates in Tercero v. Texas Southmost
4

University District (5th Cir.); Jaﬀe v. City of West Lake Hills (Tex. Dist. Ct.); Murphey v.
Old Dollar Properties, LLC (Tex. Ct. App.); and Stross v. Centerra Homes (W.D.T.X.).
12.

No prejudice would arise from granting this extension, and the requested

extension is unopposed.

Prayer
GSI respectfully requests a 30-day extension of time to file a petition for a writ of
certiorari, to and including Monday January 13, 2020.
Respectfully submitted,
/s/ Don Cruse
Don Cruse
Counsel of Record
LAW OFFICE OF DON CRUSE
1108 Lavaca St. #110-436
Austin, Texas 78701
(512) 853-9100
don.cruse@texasappellate.com
Counsel for Petitioner

5

